DOE F 1325.8
(08-93)
United States Government                                                Department of Energy

memorandum
          DATE:   May 22, 2009
   REPLY TO
    ATTN OF:      IG-40

    SUBJECT:      Letter Report on “Security Weaknesses in the Handling of Unclassified Printers and Copiers
                  at the Oak Ridge National Laboratory,” (INS-L-09-06, S08IS001)

    TO:           Manager, Oak Ridge Office

                  This is to advise you of the results of an Office of Inspector General inspection concerning an
                  allegation that the Department of Energy’s Oak Ridge National Laboratory (ORNL) was
                  excessing printers used to process sensitive, unclassified information without purging or
                  destroying their information storage devices. As we conducted our inspection, we coordinated
                  closely with site officials, and numerous corrective actions were taken or initiated to address
                  our findings. This report serves to document the final results of the review.

                  BACKGROUND

                  ORNL’s primary mission is to provide technology and expertise to Government agencies in
                  support of national security. Much of the information produced or received by ORNL is
                  sensitive and requires special handling to protect against unauthorized disclosure. The
                  Department’s Oak Ridge Office oversees the management of ORNL by UT-Battelle, LLC.

                  In carrying out its mission, ORNL uses various information technology systems to process or
                  reproduce information, including some printers and copiers containing hard drives capable of
                  storing information. This information may include sensitive, unclassified information, such
                  as official use only, export controlled, and personally identifiable information (e.g., name,
                  social security number and medical history) and requires specific protection as mandated by
                  law, regulation, or policy. Department policy requires that information storage devices in
                  printers and copiers used to process such information must be cleared, purged, or destroyed
                  by approved overwriting software, degaussing, or physical destruction before being excessed,
                  returned to vendors, or internally transferred, so such information is not released to
                  unauthorized personnel.

                  The Office of Inspector General received an allegation that ORNL was excessing printers
                  used to process sensitive, unclassified information without purging or destroying their
                  information storage devices. Previous work by our office at other Department sites has
                  identified problems with memory devices not being cleared, purged, or destroyed prior to
                  excessing. We initiated an inspection to evaluate ORNL’s procedures for excessing printers
                  with hard drive storage capability. Based on the results of our preliminary work, we
                  broadened the scope of our inspection to include copiers.
RESULTS OF INSPECTION

We concluded that ORNL did not have adequate procedures for excessing printers and
returning or transferring copiers to prevent the unauthorized dissemination of sensitive,
unclassified information. We found that during our sample period of April 2006 through
April 2008 up to 30 printers were excessed from ORNL without their hard drives being
cleared, purged, or destroyed. We interviewed two of the associated property custodians, and
they confirmed that their printers were used to process sensitive information.

We also found that during a sample period of 2006 until December 2007, ORNL returned 9
copiers to its suppliers and internally transferred 16 copiers for reuse without ensuring that
the copiers’ hard drives were cleared, purged, or destroyed. ORNL discontinued those
practices when we first raised this matter in December 2007. ORNL subsequently confirmed
seven of the nine returned copiers definitely processed sensitive information. We were told
by ORNL’s two copier suppliers that they were unaware of the whereabouts of the returned
copiers’ hard drives. The supplier responsible for six of the seven copiers informed us that it
uses facilities located in Mexico to refurbish returned copier components.

The requirement to clear, purge, or destroy information storage devices used to process
sensitive information has been Department policy for several years. We noted, however, that
ORNL’s implementation procedures did not specifically identify that printers and copiers
may have information storage devices, which may have contributed to ORNL’s failure to
examine such equipment for the presence of a hard drive prior to excessing or internal
transfer. Several individuals we interviewed told us that they were unaware that printers and
copiers may have such devices and were, as a result, subject to special handling prior to
excessing or internal transfer.

Also, although outside the scope of our inspection, while reviewing the hard drives of several
printers awaiting excessing, the Office of Inspector General’s Technology Crimes Section
discovered that one printer was used to print material from multiple pornographic websites.
In addition to clear prohibitions against such use, accessing inappropriate websites has a high
probability of introducing malicious code designed to infiltrate and damage, modify, or
monitor a computer system without the owner’s knowledge or consent. The property
custodians for the examined printers told us it could not be determined who used the printer
to print the pornography.

In response to our review, ORNL officials: initiated a management assessment; disabled the
document servers for over 160 copiers with hard drives in use at ORNL to prevent the release
of sensitive information stored on the hard drives; modified copier lease agreements to
include a requirement to either remove copier hard drives or to properly clear, purge, or
destroy the hard drives before excessing; and, updated local procedures to incorporate the
examination of excess printers and copiers to identify hard drives for proper disposition.
ORNL discontinued returning copiers to its suppliers after we made initial inquiries in
December 2007 and later identified 218 hard drives to be removed from leased copiers.
ORNL is taking actions to have the hard drives purged or destroyed in the near future.




                                         2
Since corrective actions have been taken, we are not making any formal recommendations in
this report and a formal response is not required. This inspection was conducted in
accordance with the “Quality Standards for Inspections” issued by the President’s Council on
Integrity and Efficiency. We appreciate the responsiveness of your office and the
cooperation we received throughout this inspection. If you have any questions concerning
this review, please contact Ms. Marilyn Richardson or me at (202) 586-4109.




                                        Elise M. Ennis
                                        Assistant Inspector General
                                         for Inspections

cc: Director, Office of Science
    Chief Health, Safety and Security Officer
    Director, Office of Internal Review (CF-1.2)
    Audit Liaison, Oak Ridge Office




                                        3
